TITLE XI LOAN GUARANTEE
         PROGRAM

      Maritime Administration


   Report Number: CR-2004-095

  Date Issued: September 28, 2004
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on the Follow-up Audit of the                                 Date:    September 28, 2004
           Title XI Loan Guarantee Program
           Maritime Administration
           Report No. CR-2004-095

  From:    Alexis M. Stefani                                                         Reply to
                                                                                     Attn. of:   JA-50
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Maritime Administrator


           This final report presents the results of our follow-up audit of the Maritime
           Administration’s (MARAD) Title XI Loan Guarantee Program. We initiated this
           follow-up audit as a result of the Emergency Wartime Supplemental Appropriation
           passed by Congress on April 16, 2003.1 The bill provided $25 million for the
           costs of new Title XI loan guarantees that will remain available until
           September 30, 2005. However, Congress prohibited MARAD from obligating or
           expending these funds “… until the Department of Transportation Inspector
           General certifies to the House and Senate Committees on Appropriations that the
           recommendations of report CR-2003-0312 have been implemented to his
           satisfaction.”

           Our prior audit of the Title XI Loan Guarantee Program was conducted at the
           request of Congress following vessel and shipyard owner bankruptcies and
           defaults of nine Title XI loans from February 1998 to March 2002 totaling
           approximately $490 million. There were $2 billion of Title XI defaults in the late
           1980s. MARAD’s Title XI loan guarantee portfolio totaled about $3.6 billion as
           of June 30, 2004, with another $1.4 billion in pending loan guarantee applications.

           The objectives of this follow-up audit were to verify that MARAD has developed
           and implemented adequate procedures to effectively address each of the five

           1
               Making Emergency Wartime Supplemental Appropriations for the Fiscal Year 2003, Public Law 108-11.
           2
               OIG Audit Report Number CR-2003-031, “Title XI Loan Guarantee Program,” March 27, 2003. OIG reports can be
               accessed on our website: www.oig.dot.gov.
                                                                                   2


recommendations in our March 2003 report.           The report recommended that
MARAD:

   • Risk Mitigation. Require a rigorous analysis of the risks from modifying
     any loan approval criteria and impose compensating provisions on the loan
     guarantee to mitigate those risks.
   • External Review Process. Formally establish an external review process
     as a check on MARAD’s internal loan application review and as assistance
     in crafting loan conditions and covenants.
   • Financial Monitoring. Establish a formal process for continuously
     monitoring the financial condition of borrowers, including requirements for
     financial reporting over the term of the guarantee as a condition of loan
     approval.
   • Asset Monitoring. Establish a formal process for continuously monitoring
     the physical condition of guaranteed assets over the term of the loan
     guarantee.
   • Defaulted Asset Monitoring.        Develop an improved process for
     monitoring the physical condition of foreclosed assets and for recovering
     the maximum amount of funds from their disposal.

Our scope and methodology are described in detail in Exhibit A, and the activities
visited or contacted are listed in Exhibit B.

RESULTS IN BRIEF
MARAD has developed policies and procedures that address each of the five
recommendations from our March 2003 audit report in a satisfactory manner.
However, in verifying the development of these policies and procedures, we note
that MARAD still has considerable work to do. Establishing good procedures is
just the first step, fully implementing them is another. While MARAD has
worked to get satisfactory procedures in place, the proof will be in the follow
through and implementation with respect to specific loan guarantee applications.
Therefore, we will conduct a follow-up audit of this implementation at a date still
to be determined. Strong leadership and staff committed to implementing the
strengthened procedures are critical to realize the intended benefits and reduce the
risk profile of the Title XI loan guarantee portfolio.

During this audit, three issues came to our attention that need to be fixed to ensure
that the full intent of the recommendations from our March 2003 report are
addressed. We found that MARAD was not sufficiently enforcing the reserve
requirements established to mitigate the risks of noncompliant loans.
                                                                                                                3


Furthermore, the system MARAD developed to monitor the Title XI portfolio is
antiquated and rudimentary. This is of considerable importance because MARAD
has determined that over 25 percent of its $3.6 billion portfolio is at an elevated
risk of default. Consequently, we made three new recommendations to enhance
management of the Title XI program. Our certification of the adequacy of
MARAD’s implementation, as required by the Congress, was contingent upon a
satisfactory written response from MARAD that would include an action plan with
steps and milestones to address these new recommendations. Subsequently,
MARAD provided a written response (see Appendix) that satisfactorily addressed
the intent of the recommendations.
MARAD’s Actions in Response to March 2003 Audit Report
The following is a summary of MARAD’s actions in response to our March 2003
audit report.

Risk Mitigation. MARAD strengthened its procedures for review and approval
of new loan guarantee applications. For any waivers or modifications to the
standard loan approval criteria, MARAD performs a risk analysis and determines
whether compensating measures are available or necessary, as set forth in the
governing Title XI regulation.3 Once this review is completed, MARAD presents
the results of its analysis of the application to the Department of Transportation
Credit Council (Credit Council).4 The Credit Council assesses the financial
viability of the application and its consistency with Departmental credit policies,
Federal requirements, and DOT regulations on credit assistance. The Credit
Council will provide a recommendation to the Maritime Administrator for
consideration in approving or disapproving the application.

External Review Process. Regarding the establishment of an external review
process, MARAD originally required that all new and pending applications would
undergo an external review before approval, as a supplement to MARAD’s
internal review process. As a result of subsequent reauthorization legislation,
MARAD and the Credit Council are working on a revision to this requirement.
MARAD has suggested general guidelines that would require external reviews for
applications from companies for start-up operations; for starting a new service,
applying new technologies, or employing more complex finance transactions; and
for large dollar transactions that represent a significant portion of the potential
borrower’s debt. In the interim, until this revision is complete, MARAD will seek
Credit Council concurrence for any application that MARAD believes does not
require an external review.


3
    Putting Customers First in the Title XI Program, 46 C.F.R. §298.13 (2000).
4
    Department of Transportation Order 2301.1, “Establishment of the Department of Transportation Credit Council,”
    June 10, 2004.
                                                                                   4


Financial Monitoring. By far, the most difficult area for MARAD to address was
the establishment of a formal process for monitoring the financial condition of its
Title XI portfolio companies. The process includes establishing an administrative
file for each portfolio company and assigning an analyst to monitor each file.
MARAD also established a requirement for more frequent and timely financial
reporting for new Title XI loan guarantees.

MARAD re-established a “Credit Watch” process. The Credit Watch is a
monitoring system primarily for those companies experiencing some form of
financial difficulty. MARAD established criteria to determine the conditions that
warrant inclusion on Credit Watch and more detailed and timely analyses are to be
performed on these companies. MARAD assigns Credit Watch companies to one
of three categories, depending upon a company’s relative risk: “high” (risk of
default within 1 year), “medium” (risk of default within 2 years) and “low” (risk
of default within 3 years). As of June 30, 2004, MARAD placed 25 of its 70
borrowers on Credit Watch (high risk – 9 borrowers; medium risk – 8 borrowers;
low risk – 8 borrowers). These borrowers had outstanding loan guarantees valued
at more than $935 million, or approximately 26 percent of the more than
$3.6 billion total Title XI loan guarantee portfolio. The nine borrowers considered
high risk accounted for $563 million in outstanding loan guarantees.

During our review, we observed that MARAD’s analysts were, in many cases,
6 months or more behind in performing analyses of borrowers’ financial
statements. Timelier financial monitoring will continue to be a challenge for
MARAD, especially as new loan guarantees are approved and more frequent
reporting requirements are imposed on borrowers and their affiliates. MARAD
must focus its efforts on catching up with financial analyses of the borrowers in its
current portfolio before expending significant resources on new loan guarantee
applications.

Asset Monitoring. Regarding our recommendation to more closely monitor the
physical condition of guaranteed assets, MARAD established a more formal
process to monitor whether or not a company is current with respect to its marine
insurance, classification, Coast Guard inspection, and other required certifications
related to the physical condition of vessels. Additionally, following private sector
practices, future Title XI transactions will give MARAD the right to select an
independent entity to inspect the vessel or shipyard on an annual basis at the
company’s expense if the company is not meeting its financial tests. MARAD
will use this inspection right if there is concern that the owner is not adequately
maintaining the vessel or shipyard.

Defaulted Asset Monitoring. MARAD also developed a better process for
documenting the actions taken with respect to seized assets and to maximize
                                                                                   5


recoveries from their disposal. When appropriate, MARAD obtains the services
of marine consultants to assist in conducting appraisals, surveys, and market
analyses for the disposition of foreclosed assets. In addition, MARAD now
requires monthly written reports on custodial activities and asset condition as
another means of monitoring the condition of the vessels in its possession. At the
time of our review, three vessels (Cape May Light, Cape Cod Light, and Columbia
Queen) remained in MARAD’s possession as a result of the foreclosure process.
MARAD has appointed a technical representative to monitor each vessel and has
contracted with outside parties to ensure that the vessels receive appropriate
maintenance and security measures.
Three New Areas Requiring Management Attention
Over the course of this audit, we observed three areas that require management
attention. In our opinion, the March 2003 report recommendations cannot be fully
implemented unless each of these issues is addressed. In its September 3, 2004
response (see Appendix), MARAD has promised to implement actions to address
these recommendations in a timely fashion.

Fully Fund Reserve Fund Requirements and Enforce Financial Agreements.
First, we observed that MARAD has not been enforcing key provisions of the
Title XI Reserve Fund and Financial Agreement (RFFA), an important instrument
in the Title XI closing documentation. The RFFA establishes financial tests and
covenants that borrowers are required to meet as well as financial reporting
requirements and obligatory corporate officer certifications. Importantly, the
RFFA also establishes the Title XI Reserve Fund, a type of escrow account formed
at closing that borrowers make payments into each year that they do not meet
certain financial tests. The Reserve Fund provides MARAD with additional
security over the life of the loan guarantee in case the borrower runs into financial
difficulty.

We noted that some companies were not submitting the required certifications,
and/or not making the required deposits into their Reserve Fund. MARAD’s
actions to address these violations were generally not timely and were ineffective.
Furthermore, MARAD does not have a system in place to track the required
balances in the Reserve Funds and was unable to provide this information during
the course of our audit.

In a judgmental sample of 24 Title XI companies, only 2 of 9 companies that were
required to make Reserve Fund deposits actually had. Each of the other seven
omissions are events of default in accordance with the terms of the Title XI
agreements and give rise to various legal remedies, including the Government’s
right to seize the guaranteed assets. MARAD’s failure to enforce the RFFA over
the term of loan guarantees, particularly ensuring that all required deposits are
                                                                               6


made into the Reserve Fund, makes it an ineffective means to protect the
Government’s financial interests. As a result, we are recommending that MARAD
(1) perform a full accounting of each borrower’s Reserve Fund and (2) require all
borrowers to cure any defaults under the requirements of their Reserve Fund and
Financial Agreements, including full funding of Reserve Funds.

Establish Effective Default Management. Second, in June 2003, the United
States Government Accountability Office (GAO) issued a report titled
“Weaknesses Identified in Management of the Title XI Loan Guarantee Program.”
In the report, GAO recommended that MARAD establish a clear separation of
duties to provide a system of checks and balances for key lending functions,
including loan guarantee application approvals, financial monitoring, and
disposition of foreclosed assets. Currently, these key lending functions remain
principally within the responsibility of the same MARAD employees.

The creation of the Credit Council will help in providing checks and balances to
the initial approvals of loan guarantee applications as well as approvals of
significant post-closing waivers and modifications.       However, we remain
concerned about MARAD’s ability to effectively address troubled loans.

In a recent case, a borrower requested a waiver from MARAD to defer principal
payments due on its two Title XI vessels. The borrower was in default of several
conditions of its RFFA, including $1 million in arrears on required Reserve Fund
deposits. Nonetheless, MARAD was prepared to grant the waiver request without
having acquired essential financial information and fully understanding the
borrower’s financial situation. For example, MARAD did not obtain the
independent auditor’s opinion of the borrower’s most recent audited financial
statements. The Credit Council, as part of its review of the requested waiver,
assembled a list of due diligence questions that were forwarded to the borrower,
including questions previously sent to the company by MARAD. Instead of
providing the requested financial information, the borrower dropped its waiver
request and made the required principal payment.

Because of the magnitude of dollars involved and the specialized set of skills
required to effectively resolve complex financial situations, we are recommending
that MARAD, in coordination with the Credit Council, secure access to advisors
outside MARAD with the requisite capacity and technical sophistication to
negotiate solutions to distressed loans, including appropriate compensating
provisions to mitigate risk.

Acquire Suitable Financial Monitoring Software. Third, MARAD’s financial
monitoring system is rudimentary. It relies heavily on non-electronic analyses,
and is cumbersome for updating and fully documenting pertinent events. This
                                                                                  7


antiquated system is inadequate to effectively manage any financial portfolio, let
alone one the size of MARAD’s $3.6 billion Title XI program. Developing a
computerized database system is essential for MARAD to assess efficiently and
timely the financial condition of the companies in its portfolio and to track trends
in these companies’ finances and operations.

In February 2004, the MARAD Administrator acknowledged this deficiency and
agreed to task internal MARAD information systems personnel as well as retain
outside consultants to develop a computer-based financial monitoring system.
Because little progress has been achieved on this commitment this year, we are
recommending that MARAD, with the concurrence of the Department of
Transportation Credit Council, seek appropriations language allowing the use of as
much of the $25 million wartime supplemental appropriation as necessary to
develop a comprehensive computer-based financial monitoring system.
MARAD’s Response to New Recommendations
On September 3, 2004, MARAD set forth its action plan with milestones for
satisfying the new recommendations (see Appendix). The following summarizes
MARAD’s implementation commitment.

Fully Fund Reserve Fund Requirements and Enforce Financial Agreements.
MARAD has established a plan to review each company’s Reserve Fund
requirements and other significant defaults. MARAD has promised to complete
these reviews for all companies on the Credit Watch by December 31, 2004, and
anticipates completing the reviews for the remaining Title XI borrowers by
March 1, 2005. Once these reviews are completed, MARAD has promised to take
the necessary actions, utilizing all remedies available, to cure any defaults.

Establish Effective Default Management. In coordination with the Credit
Council, MARAD will work with staff representing the other credit programs
within the Department of Transportation to develop a statement of work for
advisors outside of MARAD and the funding options for such advisors. MARAD
anticipates that a detailed action plan to secure access to advisors outside MARAD
with the requisite capacity and technical sophistication to negotiate solutions to
distressed loans can be developed by mid-December 2004.

Acquire Suitable Financial Monitoring Software. MARAD has been advised
by the Office of the Secretary that the Department wants to implement a
monitoring system that can be used by all of the Department credit programs for
purposes of efficiency and consistency. MARAD has set forth a three phase
action plan consisting of: (1) developing a requirements definition and analysis of
alternatives; (2) developing a solutions definition; and (3) acquiring and
implementing the selected system. MARAD has set milestones to complete the
                                                                                 8


first and second phase of the project by March 2005 and an additional 18 months
for the acquisition and implementation of the system.

BACKGROUND
Title XI of the Merchant Marine Act of 1936 established the Federal Ship
Financing Guarantee Program to assist private companies in obtaining financing
for the construction of ships or modernization of U.S. shipyards. This program
authorizes the Federal Government to guarantee full payment to the lender of the
unpaid principal and interest of a mortgage obligation in the event of default by a
vessel or shipyard owner. Title XI was amended in 1972 to provide Government
guarantees to commercial debt obligations, with the Government holding a
mortgage on the equipment financed.

The primary purpose of the Title XI Loan Guarantee Program is to promote the
growth and modernization of the U.S. merchant marine and U.S. shipyards. The
Title XI Loan Guarantee Program enables owners of eligible vessels and eligible
shipyards to obtain long-term financing with attractive terms. Vessels financed
using loan guarantees include double-hull oil tankers, passenger ferries, cruise
ships, and offshore drilling rigs. In the late 1980s, MARAD paid out
approximately $2 billion in guarantees to cover 129 loan defaults. In the 5 years
following the implementation of the Credit Reform Act of 19905 (Fiscal Years
1993 through 1997), only three loans, totaling approximately $12 million,
defaulted. In contrast, from February 1998 to March 2002, nine Title XI loans,
totaling approximately $490 million, defaulted.

As a result of the increase in the number of and amount of defaulted loans, the
Ranking Member, Senate Committee on Commerce, Science and Transportation,
and the Chairman, Subcommittee on Commerce, Justice, State and Judiciary of the
House Committee on Appropriations requested that the Office of Inspector
General (OIG) conduct an audit of MARAD’s Title XI Loan Guarantee Program.
The March 27, 2003 audit report identified a number of areas in which MARAD
could improve its practices, limit the risk of default, and reduce losses to the
Government. Subsequently, the OIG has been reviewing MARAD’s progress as it
both establishes its procedures to address the report recommendations and ensures
that they are implemented.

As of June 30, 2004, MARAD’s Title XI loan guarantee portfolio totaled
approximately $3.6 billion. Of that amount, $3.5 billion represents loan
guarantees (that is, construction loans and mortgage loans) that had already been
made, and $106 million were commitments for future guarantees. Additionally, as

5
    Public Law 101-508.
                                                                                                         9


of the most recent update in August 2004, MARAD had 11 pending applications,
valued at about $1.4 billion (the original amount of the loan). Utilizing a risk
factor of 6.21 percent,6 the $25 million supplemental appropriation could provide
up to $400 million in new loan guarantees.

RESULTS AND RECOMMENDATIONS
MARAD has developed policies and procedures that address each of the five
recommendations from our March 2003 audit report in a satisfactory manner.
However, in verifying the development of these policies and procedures, we note
that MARAD still has considerable work to do. Establishing good procedures is
just the first step, fully implementing them is another. While MARAD has
worked to get satisfactory procedures in place, the proof will be in the follow
through and implementation with respect to specific loan guarantee applications.
Therefore, we will conduct a follow-up audit of this implementation at a date still
to be determined. Strong leadership and staff committed to implementing the
strengthened procedures are critical to realize the intended benefits and reduce the
risk profile of the Title XI loan guarantee portfolio.

During this audit, three issues came to our attention that need to be fixed to ensure
that the full intent of the recommendations from our March 2003 report are
addressed. We found that MARAD was not sufficiently enforcing the reserve
requirements established to mitigate the risks of noncompliant loans.
Furthermore, the system MARAD developed to monitor the Title XI portfolio is
antiquated and rudimentary. This is of considerable importance because MARAD
has determined that over 25 percent of its $3.6 billion portfolio is at an elevated
risk of default. Consequently, we made three new recommendations to enhance
management of the Title XI program. Our certification of the adequacy of
MARAD’s implementation, as required by the Congress, was contingent upon a
satisfactory written response from MARAD that would include an action plan with
steps and milestones to address these new recommendations. Subsequently,
MARAD provided a written response (see Appendix) that satisfactorily addressed
the intent of the recommendations.

The following discusses MARAD’s actions in response to our March 2003
recommendations.




6
    Credit subsidy rate presented by the Maritime Administrator in testimony before the Senate Committee on
    Commerce, Science, and Transportation on the Title XI Loan Guarantee Program, June 5, 2003.
                                                                                 10


March 2003 Recommendation 1: “Require a rigorous analysis of
the risks from modifying any loan approval criteria and impose
compensating provisions on the loan guarantee to mitigate
those risks.”
In response to this recommendation, MARAD updated and strengthened its
procedures for review and approval of loan guarantee applications. For any
waivers or modifications to the standard loan approval criteria, MARAD will
perform a risk analysis and determine whether compensating controls are available
or necessary, as set forth in the governing Title XI regulation.7 MARAD will
ensure that results from the completed analysis are documented in the
administrative file and include, at a minimum the (1) modification or waiver,
(2) compensating controls being required as consideration for the waiver or
modification, and (3) how the Government’s interest is still adequately secured.
Once this review is completed, MARAD presents the results of its analysis of the
application to the Credit Council. The Credit Council assesses the financial
viability of the application and its consistency with Departmental credit policies,
Federal requirements, and DOT regulations on credit assistance. The Credit
Council will provide a recommendation to the Maritime Administrator for
consideration in approving or disapproving the application.

MARAD’s updated procedures were in place for the two loan guarantee
applications approved since June 2003. The first, Lake Express LLC, applied for a
$14.5 million Title XI loan guarantee in December 2002 for mortgage period
financing of a high-speed ferry to provide service on Lake Michigan between
Milwaukee, Wisconsin, and Muskegon, Michigan. The Lake Express application
did not require any material modifications to the loan guarantee approval criteria.

The second was a $143.8 million loan guarantee application for Totem Ocean
Trailer Express, Inc. (Totem). Totem applied for a Title XI loan guarantee in
January 2003 to build a replacement vessel for its Alaska trade. In this case,
Totem requested modifications to allow larger dividends to its shareholders, and
an amendment to the working capital definition to include receivables and credit
facilities not normally incorporated.

After performing a risk analysis, MARAD imposed compensating provisions to
mitigate the increased risks introduced by approving the modifications.
Specifically, Totem’s parent company, Saltchuk Resources, Inc., will provide both
a guarantee for the loan as well as enter into the Title XI RFFA. Doing so subjects
the parent company to the loan guarantee’s financial tests and covenants as well.
Additionally, the statutory leverage requirement of 2:1 will be tightened to 1.75:1,

7
    Putting Customers First in the Title XI Program, 46 C.F.R. §298.13 (2000).
                                                                                                              11


thus decreasing the amount of debt the company could issue relative to the equity
available. MARAD was also granted a second mortgage on Totem’s three
existing vessels, a cross default provision allowing MARAD to declare a default if
Saltchuk is in violation of its private sector debt, and Totem’s existing Title XI
financing will be modified to comply with this more restrictive transaction. The
Maritime Administrator approved the Title XI loan guarantee commitment in
October 2003 with the concurrence of OST (the Credit Council was not formally
established until June 2004). In our view, the compensating provisions addressed
the risks introduced by approving the modifications.

March 2003 Recommendation 2: “Formally establish an external
review process as a check on MARAD’s internal loan application
review and as assistance in crafting loan conditions and
covenants.”
MARAD retained independent external reviewers to conduct limited evaluations8
of the two loan guarantee applications approved since June 2003 – Lake Express
LLC, and Totem.

Regarding the Lake Express application, an independent external financial analyst
reviewed the company’s business plan and capitalization, and an independent
external market analyst reviewed the market research and demand forecast. The
financial analyst recommended that several steps be taken to further protect the
Government’s interests and MARAD agreed to implement these changes, as
appropriate. The market analyst raised some concerns about the underlying
market research and, as a result, MARAD limited the Government’s risk by
establishing a firm ceiling on the guarantee amount in the Lake Express
commitment letter. On the second application, the external financial analyst for
Totem’s business plan and capitalization recommended that several steps be taken
to further protect the Government’s interests. MARAD addressed those issues as
well and adopted measures as appropriate.

MARAD’s initial policy for obtaining independent external reviews applied to all
Title XI loan guarantee applications. On September 8, 2003, the Maritime
Administrator delivered an “Action Memorandum to the Secretary” providing the
then current status of reforms being undertaken to improve the management of the
program. Among other things, MARAD stipulated that all new and pending
applications would undergo an external review before approval as a supplement to
MARAD’s internal review process. Subsequently, on November 24, 2003,
Congress passed the National Defense Authorization Act for Fiscal Year 2004.9

8
    MARAD cited two reasons for these limited evaluations: (1) the narrow timeframe in which these analyses needed
    to be performed, and (2) the lack of a defined source of funds to pay for such reviews at the time.
9
    National Defense Authorization Act for Fiscal Year 2004, Public Law 108-136.
                                                                                  12


Section 3526 of the Act provided, “The Secretary may make a determination that
aspects of an application under this title require independent analysis to be
conducted by third party experts due to risk factors associated with markets,
technology, financial structures, or other risk factors identified by the Secretary.”
The Committee Report accompanying the legislation stated, “The conferees intend
that the Secretary should not use this authority in routine cases nor where
MARAD already has sufficient expertise to assess fully the risk of approving a
loan guarantee application.” This section also provided MARAD with a means to
collect fees to cover the costs of these independent analyses.

As a result of this legislation, MARAD and the Credit Council are working on a
revision to the requirement for external reviews of all Title XI applications.
MARAD has suggested general guidelines for procuring external reviews of Title
XI applications, to include companies starting a new service, start-up operations,
new technologies, more complex finance transactions, and large dollar
transactions representing a significant portion of the potential borrower’s debt.
Until this revision to the September 8, 2003 action memorandum is finalized,
MARAD will seek Credit Council concurrence for any application that MARAD
believes does not require an external review. Additionally, MARAD’s Office of
Ship Financing and Office of Acquisitions have developed a list of qualified
entities that can perform external reviews.

March 2003 Recommendation 3: “Establish a formal process for
continuously monitoring the financial condition of the
borrowers, including requirements for financial reporting over
the term of the guarantee as a condition of loan approval.”
In response to our recommendation, MARAD established a formal process to
review the financial statements and monitor the financial condition of its Title XI
portfolio companies. The process includes establishing an administrative file for
each portfolio company and assigning an analyst to monitor each file. The file
includes financial statements, a form indicating when the financial statements and
other financial reports are due, and a listing of the financial requirements of the
loan guarantee. For each due date, MARAD’s analyst prepares a financial
statement review (FSR) form. These forms will also be completed for all affiliated
companies whose financial condition is relied upon by MARAD (i.e., parent
companies providing guarantees for its subsidiary’s Title XI debt). The FSR,
composed of basic information on the financial condition of the company,
particularly the company’s compliance with the various financial tests included in
the Title XI documentation, forms part of the basis for MARAD determining
whether or not the company should be placed on “Credit Watch” and why.
                                                                                13


The Credit Watch is a monitoring system MARAD developed for those companies
experiencing some form of financial difficulty. The Credit Watch is broken down
into three categories: category 3 – significant/high risk (risk of default within
1 year); category 2 – moderate/medium risk (risk of default within 2 years);
category 1 – minimal/low risk (risk of default within 3 years). MARAD
established criteria to determine the conditions that warrant inclusion on Credit
Watch and more detailed and timely analyses are to be performed on these
borrowers. The criteria include a company’s lack of compliance with any of the
financial tests included in the RFFA, a bankruptcy filing, or a company exhibiting
deteriorating financial trends. MARAD also places borrowers on Credit Watch
during their first 3 years of start-up operations. These criteria are comprehensive
and should help identify loans requiring closer monitoring.

In January 2004, MARAD initially placed 26 borrowers on Credit Watch. As of
June 30, 2004, 25 borrowers were on Credit Watch with outstanding loan
guarantees valued at more than $935 million or approximately 26 percent of the
more than $3.6 billion Title XI loan guarantee portfolio. A breakdown of the 25
companies is shown in the Table below.


                           Credit Watch Companies
                              (as of June 30, 2004)
   Risk                 No. of           Loan       Percent of        Percent of
   Category           Companies      Guarantees      Title XI          Credit
                                    ($ in millions) Portfolio $        Watch $

   3. High Risk             9             563              15.6          60.2
   2. Medium Risk           8             232               6.5          24.8
   1. Low Risk              8             140               3.9          15.0

   Total                   25             $935            26.0%        100.0%

Source: MARAD’s list of Credit Watch companies

Procedures require that Credit Watch reports be updated when (1) financial
statements are received, (2) Title XI debt service payments are made, and
(3) developments occur that would either favorably or adversely impact a
company’s financial or economic condition. MARAD distributes copies of the
Credit Watch reports to the (1) Maritime Administrator, (2) Deputy Maritime
Administrator, (3) Chief Counsel, (4) Associate Administrator for Shipbuilding,
(5) Chief, Division of Ship Financing Contracts, and (6) Director, Office of Ship
Financing.
                                                                                     14


MARAD’s procedures require that the Credit Watch reports be provided to the
DOT Chief Financial Officer and General Counsel on a quarterly basis. The
Credit Watch reports form the basis for quarterly meetings between the Credit
Council and MARAD senior management to discuss the Title XI loan guarantee
portfolio and whether or not it is necessary to take any actions to protect the
interests of the taxpayer against potential defaults. MARAD also plans to hold
these meetings on a case-by-case basis if needed.

MARAD held its first quarterly Credit Watch meeting with senior OST officials in
March 2004 (prior to the establishment of the Credit Council). At the meeting,
MARAD provided information on the criteria used for the Credit Watch reports
and highlighted some of the higher risk projects.

In addition to maintaining the FSR and Credit Watch reports in each company’s
administrative file, MARAD will maintain a copy of these reports in a central file
with other reports of all the Title XI companies for tracking purposes. Between
September 2003 and February 2004, MARAD prepared an FSR based on each
borrower’s December 31, 2002 financial statements. MARAD prepared Credit
Watch reports for 26 companies based on their respective June 30, 2003 financial
statements. After our review of MARAD’s initial analyses and subsequent
discussions, MARAD agreed to make certain improvements to future Credit
Watch reports, including more in-depth financial and operational analyses
necessary to monitor these loan guarantees. MARAD updated three Credit Watch
reports of companies in the “high risk” category with this enhanced analysis using
the more recent audited financial statements for the year ended December 31,
2003. MARAD intends to apply this more in-depth approach to all 2003 year-end
financial submissions as well as future analyses of Credit Watch companies.

To its credit, MARAD established a requirement for more frequent and timely
financial reporting for future Title XI loan guarantees. For all new loan
guarantees, MARAD requires borrowers to provide officer certified quarterly
financial statements (currently semi-annual) within 45 days after the end of the
period (currently 90 days) in addition to the audited financial statements 105 days
after the end of the fiscal year. Additionally, MARAD now requires any company
in the “high-risk” category of the Credit Watch to submit monthly financial
statements within 30 days of each month’s end. These enhanced reporting
requirements have been included in the closing documentation of the two loan
guarantees (Lake Express and Totem) approved since June 2003 and will be
incorporated in all future loan guarantee transactions.

Furthermore, when a MARAD analyst identifies an action by the borrower or its
affiliates that is a breach of any applicable covenant or financial test, the analyst is
required to contact the company and document the breach in the company’s
                                                                                 15


administrative file. If the company requests a waiver, any approval must indicate
the basis for the approval, any compensating requirements, and an explanation that
adequate security exists to mitigate risk.

On June 10, 2004, the Department issued DOT Order 2301.1, “Establishment of
the Department of Transportation Credit Council”. The Credit Council’s primary
responsibilities are to provide policy direction; review the financial analysis of
proposed projects and significant modifications to existing projects; and review,
on a regular basis, the outstanding portfolios of all DOT credit programs. The
order also called for the establishment of a Joint Credit Office responsible for
conducting the financial analysis of all credit applications in DOT credit programs,
including Title XI applications in concert with MARAD and the Office of Budget
and Program Performance within OST. Loan guarantee applications will be
presented to the Credit Council after MARAD, the Joint Credit Office, and OST
Budget have completed their reviews.

The formation of this Credit Council should afford an excellent mechanism to
ensure that the procedures developed by MARAD continue to be implemented and
provide the intended benefits and risk reduction to the Title XI Loan Guarantee
Program. The Credit Council has already reviewed an application for a new Title
XI guarantee as well as a borrower’s request for a significant modification to an
existing Title XI loan guarantee.

March 2003 Recommendation 4: “Establish a formal process for
continuously monitoring the physical condition of guaranteed
assets over the term of the loan guarantee.”
In response to our recommendation, MARAD established a more formal process
to monitor whether or not a company is current with respect to its marine
insurance, classification, Coast Guard inspection, and other required certifications
related to the physical condition of vessels. On a quarterly basis, the Office of
Insurance will inform the Office of Ship Financing of any companies not current
on their insurance. Similarly, the Office of Ship Operations will advise the Office
of Ship Financing of any companies that do not have current classifications and
vessel inspections. The first of the quarterly reports for the period ended
December 31, 2003, was delivered to the Office of Ship Financing in
January 2004. The report noted two confirmations of insurance on Title XI
companies that had not been received. According to MARAD’s Office of
Insurance, both companies provided MARAD with the necessary confirmations
within 5 days of the issuance of the report.

MARAD’s Office of Insurance maintains a file with insurance record cards for
each company. Every month it reviews the file to determine which companies
                                                                                 16


insurance will expire within 30 days. A reminder letter is sent to each insurance
broker or company. To ensure that companies maintain current insurance, the
Division of Marine Insurance must certify that each vessel has insurance coverage
prior to loan guarantee closings. Further, vessel owners must provide evidence
that vessels have received all necessary certifications prior to obtaining insurance
coverage.

Additionally, following private sector practices, future Title XI transactions will
give MARAD the right to select an independent entity to inspect the vessel or
shipyard on an annual basis, at the company’s expense, if the company is not
meeting its financial tests. MARAD will use this inspection right if there is
concern that the owner is not adequately maintaining the vessel or shipyard. We
concluded that MARAD’s revised procedures were adequate for monitoring the
physical condition of guaranteed assets.

March 2003 Recommendation 5: “Develop an improved process
for monitoring the physical condition of foreclosed assets and
for recovering the maximum amount of funds from their
disposal.”
After a thorough review of its existing procedures for monitoring the physical
condition of defaulted assets and their disposition, MARAD developed a formal
process for documenting the actions taken with respect to seized assets. When
appropriate, MARAD obtains the services of marine consultants to assist in
conducting appraisals, surveys, and market analyses for the disposition of
defaulted assets. MARAD will maintain copies of the consultant reports in the
administrative files of the respective companies. In addition, MARAD now
requires monthly written reports on custodial activities and asset condition as
another means of monitoring the condition of the vessels in its possession.

At the time of our review, three vessels (Cape May Light, Cape Cod Light, and
Columbia Queen) remained in MARAD’s possession as a result of the foreclosure
process. MARAD has appointed a technical representative to monitor each vessel
and has contracted with outside parties to ensure that the vessels receive
appropriate maintenance and security measures. We performed an on-site visit to
two of the vessels and completed a walk through of both accompanied by the
custodian. Based on our review of MARAD’s files, on-site tour, discussions with
the MARAD official responsible for the third vessel, and confirmation that the
insurance coverage for each vessel is adequate, we concluded that MARAD is
maintaining the vessels satisfactorily. MARAD is exploring its options to dispose
of the vessels and expects to sell the assets in the near future.
                                                                                17


THREE NEW AREAS REQUIRING MANAGEMENT ATTENTION
Over the course of this audit, we observed three areas that require management
attention. The March 2003 report recommendations cannot be fully implemented
without each of these issues being addressed. In its response (see Appendix),
MARAD has promised to implement actions to address these recommendations in
a timely fashion.

Reserve Fund and Financial Agreement
A key instrument in the Title XI closing documentation is the Title XI Reserve
Fund and Financial Agreement. This agreement, among other things, establishes
financial tests and covenants that the borrowers are required to meet. The RFFA
also establishes the Title XI Reserve Fund. The Title XI Reserve Fund is a type of
escrow account formed at closing that borrowers make payments into each year
they do not meet certain financial tests. Consequently, the Reserve Fund provides
MARAD with additional security over the life of the loan guarantee in case the
borrower runs into financial difficulty. The RFFA requires companies to provide
a statement of an independent certified public accountant that Reserve Fund
calculations have been computed in accordance with the agreement (and showing
the pertinent calculations) along with the total amount of all deposits required to
be made into the fund for that fiscal year as well as an Annual No Default
Certificate stating whether or not the company is in default of any condition.

During our review, we observed that MARAD was not enforcing key provisions
of the RFFA. Some companies were not submitting the required certifications
and/or not making the required deposits into the Reserve Fund. Out of a
judgmental sample of 24 companies (see Exhibit A), fewer than half of the
companies provided MARAD with the requisite Title XI Reserve Fund Net
Income documentation. We observed a lack of enforcement as well with the
Annual No Default Certificates in that one-third of the sample companies had
failed to provide MARAD with the required certificate and less than half of the
remaining two-thirds provided it on a timely basis. Additionally, according to
MARAD, only two out of nine companies that were required to make Reserve
Fund deposits actually had. Each of these failures to comply with the provisions
of the RFFA are events of default in accordance with the terms of the Title XI
agreements and give rise to various legal remedies, including the Government’s
right to seize the guaranteed assets.

MARAD’s failure to enforce the RFFA over the term of loan guarantees,
particularly ensuring that all required deposits are made into the Reserve Fund,
makes it an ineffective means to protect the Government’s financial interests. As
a result, we are recommending that MARAD (1) perform a full accounting of each
borrower’s Reserve Fund and (2) require all borrowers to cure any defaults under
                                                                              18


the requirements of their Reserve Fund and Financial Agreements including full
funding of Reserve Funds.

Default Management
In June 2003, the United States Government Accountability Office (GAO) issued
a report titled “Weaknesses Identified in Management of the Title XI Loan
Guarantee Program.” In the report, GAO recommended that MARAD establish a
clear separation of duties to provide a system of checks and balances for key
lending functions, including loan guarantee application approvals, financial
monitoring, and disposition of foreclosed assets. Currently, these key lending
functions remain principally within the responsibility of the same MARAD
employees.

The creation of the Credit Council will help in providing checks and balances to
the initial approvals of loan guarantee applications as well as approvals of
significant post-closing waivers and modifications.       However, we remain
concerned about MARAD’s ability to effectively address troubled loans.

In a recent case, a borrower requested a waiver from MARAD to defer principal
payments due on its two Title XI vessels. The borrower was in default of several
conditions of its RFFA, including $1 million in arrears on required Reserve Fund
deposits. Nonetheless, MARAD was prepared to grant the waiver request without
having acquired essential financial information and fully understanding the
borrower’s financial situation. For example, MARAD did not obtain the
independent auditor’s opinion of the borrower’s most recent audited financial
statements. The Credit Council, as part of its review of the requested waiver,
assembled a list of due diligence questions that were forwarded to the borrower,
including questions previously sent to the company by MARAD. Instead of
providing the requested financial information, the borrower dropped its waiver
request and made the required principal payment.

Because of the magnitude of dollars involved and the specialized set of skills
required to effectively resolve complex financial situations, we are recommending
that MARAD, in coordination with the Credit Council, secure access to advisors
outside MARAD with the requisite capacity and technical sophistication to
negotiate solutions to distressed loans, including appropriate compensating
provisions to mitigate risk.

Financial Monitoring Software
MARAD’s financial monitoring system is rudimentary. It relies heavily on non-
electronic analyses and is cumbersome for updating and fully documenting
pertinent events. This antiquated system is inadequate to effectively manage any
                                                                                 19


financial portfolio, let alone one the size of MARAD’s $3.6 billion Title XI
program. During our audit, we met with officials at the Export-Import Bank of the
United States (Ex-Im Bank). The Ex-Im Bank has implemented a robust,
sophisticated computerized system to monitor its extensive portfolio. Developing
a computerized database system is essential for MARAD to assess efficiently and
timely the financial condition of the companies in its portfolio and to track trends
in these companies’ finances and operations.

In February 2004, the MARAD Administrator acknowledged this deficiency and
agreed to task internal MARAD information systems personnel as well as retain
outside consultants to develop a computer-based financial monitoring system.
Because little progress has been achieved on this commitment this year, we are
recommending that MARAD, with the concurrence of the Department of
Transportation Credit Council, seek appropriations language allowing the use of as
much of the $25 million wartime supplemental appropriation as necessary to
develop a comprehensive computer-based financial monitoring system.

RECOMMENDATIONS
We recommend that the Maritime Administrator:

   1. Perform a full accounting of each borrower’s Reserve Fund, and require all
      borrowers to cure any defaults under the requirements of their Reserve
      Fund and Financial Agreements, including full funding of Reserve Funds.

   2. In coordination with the Department of Transportation Credit Council,
      secure access to advisors outside MARAD with the requisite capacity and
      technical sophistication to negotiate solutions to distressed loans, including
      appropriate compensating provisions to mitigate risk.

   3. With the concurrence of the Department of Transportation Credit Council,
      seek appropriations language allowing the use of as much of the
      $25 million wartime supplemental appropriation as necessary to develop a
      comprehensive computer-based financial monitoring system.

MANAGEMENT COMMENTS
On September 3, 2004, MARAD provided a response (see Appendix) to our
August 18, 2004 draft report. The Maritime Administrator stated that MARAD is
committed to implementing the three new recommendations and provided an
action plan with milestones for satisfying them.

To address the first recommendation, MARAD will send a letter to each borrower
by October 1, 2004, requesting certifications regarding required reserve fund
                                                                                20


deposits from the inception of each loan. The letter will require a response from
each borrower by November 1, 2004. After the responses are received, MARAD
will take the necessary actions, utilizing all remedies available, to cure any
defaults. MARAD will also review each company’s financial statements for any
other outstanding defaults that have a substantial adverse financial impact on, or
increase the financial risk to MARAD, and aggressively pursue remedies to cure
those defaults. MARAD will complete these reviews for all companies on the
Credit Watch by December 31, 2004, and anticipates completing the reviews for
the remaining Title XI borrowers by March 1, 2005. Prospectively, MARAD will
require that all companies comply with each of their obligations set forth in the
Title XI documentation; and has committed to take timely and appropriate action
to redress any defaults.

To address the second recommendation, MARAD will work with staff
representing the other credit programs within the Department of Transportation
(the Credit Restructuring Working Group) to develop a statement of work for
advisors outside of MARAD and the funding options for such advisors. This issue
will be presented to the Department of Transportation Credit Council at its next
meeting. MARAD expects the Credit Council to decide on how to proceed by
mid-November 2004. A detailed action plan to secure access to advisors outside
MARAD with the requisite capacity and technical sophistication to negotiate
solutions to distressed loans, including appropriate compensating provisions to
mitigate risk, can be developed by mid-December 2004.

Regarding the third recommendation, MARAD has been advised by the Office of
the Secretary that the Department wants to implement a monitoring system that
can be used by all of the Department credit programs for purposes of efficiency
and consistency. MARAD is currently working with the Department’s Chief
Information Officer to determine the funding necessary from each operating
administration for development of a requirements definition and analysis of
alternatives. MARAD anticipates that this will take 120 days and that the funding
needed to complete this phase will be obligated prior to the end of the current
fiscal year. MARAD has already obligated its share for this phase. MARAD also
has developed a preliminary statement of work to be finalized after reaching a full
agreement with all members of the Credit Restructuring Working Group. As Title
XI loan guarantees make up a major portion of the Department’s total credit
portfolio, to determine the funding necessary to continue with the project, the
Department is investigating means to allow the use of a portion of the $25 million
supplemental wartime appropriation for this purpose. The next phase of the
project, expected to take 90 days, will be to develop the method for accomplishing
the requirements within the selected alternative. Once this is completed, MARAD
expects that the acquisition and implementation of the selected system, in phased
incremental software installations, will take approximately 18 months.
                                                                               21


OFFICE OF INSPECTOR GENERAL RESPONSE
MARAD’s planned actions and milestones are responsive to the intent of our
recommendations.

MARAD should place a high priority on meeting the milestones that it has
established in its response. Performing a full accounting of each borrower’s
Reserve Fund, and requiring all borrowers to cure any defaults under the
requirements of their Reserve Fund and Financial Agreements, including full
funding of Reserve Funds, will significantly reduce the risk of its Title XI
portfolio. We also would expect that MARAD will implement the program
improvements it developed before expending significant resources on reviewing
and approving new loan guarantee applications.

As mentioned earlier, during our review, we observed that MARAD’s analysts
were, in many cases, 6 months or more behind in performing analyses of
borrowers’ financial statements. While we understand that MARAD has only
recently initiated the implementation of its financial monitoring system, MARAD
nonetheless must focus its efforts on bringing its new system up to date as no
responsible lending institution would continue to originate new loan guarantees
without having a firm grasp on the financial condition of its existing portfolio.

ACTION REQUIRED
MARAD’s planned actions are responsive to the intent of the recommendations.
The recommendations are considered resolved subject to follow-up requirements
of Department of Transportation Order 8000.1C.

We appreciate the courtesies and cooperation of MARAD representatives during
this audit. If you have any questions concerning this report, please contact me at
(202) 366-1992 or Mark Dayton, Assistant Inspector General for Competition and
Economic Analysis, at (202) 366-9970.
                                                                              22




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this follow-up audit as a result of the Emergency Wartime
Supplemental Appropriation passed by Congress on April 16, 2003. The bill
included $25 million to fund Title XI loan guarantees, but made MARAD’s access
to the funds contingent on certification that the recommendations in the OIG
Report Number CR-2003-031 have been implemented to the Inspector General’s
satisfaction. The scope of this assignment was limited to the review of MARAD’s
development and implementation of processes and procedures to address the five
report recommendations and covered the entire Title XI loan guarantee portfolio
including all new and pending applications, loan guarantee commitments, and loan
guarantees.

In performing the audit, we made inquiries and reviewed relevant documents, such
as company financial statements, MARAD’s Financial Statement Reviews,
MARAD’s Credit Watch reports, Commitments to Guarantee Obligations, Title
XI RFFAs, Depository Agreements, and post-closing waivers/modifications. We
held meetings with and interviewed MARAD officials to obtain and discuss
policies, procedures, regulations, and internal controls relevant to the Title XI
Program at MARAD Headquarters and field offices. We met with MARAD’s
Office of Accounting to determine whether MARAD had received documentation
regarding borrower Title XI debt payments and Reserve Fund deposits. We also
met with officials from the Export-Import Bank to gain an understanding of how
the bank’s loan guarantee program could be used as a benchmark in evaluating
MARAD’s Title XI Loan Guarantee Program and attended a demonstration of
their automated financial monitoring system.

To evaluate MARAD’s implementation of its financial monitoring process, we
reviewed the Financial Statement Reviews and applicable Credit Watch reports for
the Title XI portfolio companies that filed December 2002 financial statements
with loans outstanding as of September 2003. While our analysis covered the
entire Title XI portfolio, we concentrated on the 26 loan guarantees MARAD
included in its January 2004 Title XI Credit Watch analysis. We also reviewed
MARAD’s new procedure of obtaining the concurrence of OST for any
substantive post-closing waivers or modifications of existing Title XI loan
guarantees (11 companies) identified by MARAD.

We evaluated MARAD’s analysis of the Title XI loan guarantee applications and
the independent external review processes for both Lake Express LLC and Totem
Ocean Trailer Express, Inc. This included an examination of the various reports
issued as well as meetings and interviews with the financial and market experts


Exhibit A. Scope and Methodology
                                                                                     23


retained to perform the application reviews. This was followed by meetings with
MARAD officials to confirm that the conclusions of the experts were considered.

To assess MARAD’s enforcement of its RFFAs, we used a judgmental sampling
approach and requested the (1) Title XI Reserve Fund Deposit calculation and
(2) Annual No Default Certificates for 24 loan guarantees in the portfolio
(approximately one-third of the companies). Our sample included (1) all 15
companies in the “high” and “medium” risk categories of the January 2004 Credit
Watch, (2) 5 of the 11 companies in the “low” risk category of the January 2004
Credit Watch, and (3) 4 companies not on Credit Watch.

We met with the Office of Insurance to review the types of insurance coverage
(i.e. hull insurance, third party liability, war risk insurance, etc.) and the reporting
system for obtaining information from the insurance companies. We reviewed the
status of insurance coverage (i.e. insurance binders) on all vessels and shipyard
modernization projects in the Title XI Loan Guarantee Program for the companies
on Credit Watch. In addition, we reviewed MARAD’s proof of insurance for the
three vessels held by MARAD through the foreclosure process. We met with the
Division of Ship Maintenance regarding the United States Coast Guard inspections
and Class Society certifications for the vessels under the Title XI Loan Guarantee
Program.

We visited the Kvaerner Shipyard in Philadelphia, Pennsylvania to observe and
gain a better understanding of the shipbuilding process. In addition, we visited
two of the three vessels obtained through the foreclosure process, the Cape May
Light and Cape Cod Light, at the Clay County Port Authority in Green Cove
Springs, Florida in order to observe the vessels and determine whether MARAD is
satisfactorily monitoring and maintaining the physical condition of its assets. We
held a meeting with the regional MARAD staff responsible for ensuring the day-
to-day maintenance and safeguarding of the third vessel obtained through the
foreclosure process (Columbia Queen).

During the audit, we held numerous meetings with MARAD officials to discuss
their progress in establishing and implementing policies and procedures to address
our recommendations.          In February 2004, we issued a memorandum
communicating the current status of our follow-up audit to the Acting Deputy
Secretary.

We conducted the audit from June 2003 through August 2004, in accordance with
Government Auditing Standards prescribed by the Comptroller General of the
United States.




Exhibit A. Scope and Methodology
                                                          24




EXHIBIT B. ACTIVITIES VISITED OR CONTACTED
We visited or contacted the following organizations.

Maritime Administration Headquarters
Office of the Maritime Administrator
Office of Accounting
Associate Administrator for Shipbuilding
Office of Ship Financing
Office of Insurance and Shipping Analysis
Division of Marine Insurance
Division of Ship Maintenance
Office of the Chief Counsel
Division of Ship Financing Contracts
Division of Management and Organization

Maritime Administration Field Offices
South Atlantic Region, Norfolk, VA
Western Region, San Francisco, CA

Other Activities Visited or Contacted
Export-Import Bank of the United States, Washington, DC
Clay County Port Authority, Green Cove Springs, FL
Kvaerner Shipbuilding, Inc., Philadelphia, PA
American Marine Advisors, Inc., New York, NY




Exhibit B. Acti vities Visited or Contacted
                                                                   25




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.



  Name                                    Title

  Mark R. Dayton                          Assistant Inspector General
                                          for Competition and Economic
                                          Analysis

  Stuart A. Metzger                       Program Director

  Mitchell Behm                           Project Manager

  Gary Fishbein                           Senior Auditor

  Bernard Fishman                         Senior Auditor




Exhibit C. Major Contributors to This Report
                                                                                  26



APPENDIX. MANAGEMENT COMMENTS




The Maritime Administration (MARAD) has reviewed your draft report on
the results of the follow-up audit of the Title XI loan guarantee program.
Although we continue to have concerns with certain statements in the report,
we are committed to implementing the three new recommendations in the
draft report. Our response below has been limited to our action plan for
satisfying those recommendations.

Recommendation 1: Perform a full accounting of each borrower’s
Reserve Fund, and require all borrowers to cure any defaults under the
requirements of their Reserve Fund and Financial Agreements,
including full funding of Reserve Funds.

MARAD Accounting.

MARAD will initiate a review of each current Title XI company to
determine whether, over the life of their respective Title XI transaction(s),
any company has failed to make the required Reserve Fund deposits. To
accomplish this, we will send a letter to each current Title XI shipowner
requiring that it submit a certification for each year of its loan guarantee as
to whether a Reserve Fund deposit was required or not, the amount of
deposit due, and the amount actually paid. These letters will be sent by
October 1, 2004, with a request that the companies respond by


Appendix. Management Comment s
                                                                                 27



November 1, 2004. We will pursue the certifications and failure to make
Reserve Fund deposits beginning with the companies in the highest risk
category on the Credit Watch Report. After the responses are received, we
will determine the appropriate course of action to cure any defaults, taking
into consideration such factors as the company’s current financial condition,
years remaining on the guarantee, and the date on which the Reserve Fund
deposit(s) should have been made. We will utilize the means discussed later
in this section.

We will also review our records to determine whether any Title XI company
has failed to file financial statements over the last three calendar years
(2001, 2002, 2003). To the extent that additional financial statements are
needed, MARAD will demand that the companies provide them by October
15. Finally, we will also review each company’s financial statements for the
same time period to determine whether it has committed any defaults that
have any substantial adverse financial impact on, or increase the financial
risk to MARAD, such as impermissible dividends or redemptions of capital.

We will aggressively demand that a company found to be in default rectify
any of the above defaults by promptly complying with the requirements
imposed by the Title XI documentation. MARAD will require explanations
in writing and demand prompt compliance, followed by demands for face to
face meetings here in Washington. A failure to redress the default will be
met by MARAD taking timely and appropriate enforcement action.
Prospectively, we will require that all companies observe each of their
obligations under their Title XI documentation.

In response to the five recommendations contained in your March 27, 2003,
audit report, MARAD worked with your staff to develop new forms and
procedures to implement these recommendations. We believe that following
these procedures is an important function. This effort will continue as the
staff works on the review of the prior years’ financial statements as outlined
above, in response to your latest recommendation. The same MARAD staff
will also be working with the DOT Credit Council and its staff on various
aspects of program administration, including Credit Watch briefings. We
anticipate completing the overall financial review for all companies by
March 1, 2005. However, in order to ensure that the most problematic
companies do not have egregious defaults that increase the financial risk to
the Government, MARAD will perform a complete review of the companies
on the Credit Watch Report by December 31, 2004.




Appendix. Management Comment s
                                                                                  28




Enforcement Based on Existing Remedies. Enforcement actions, as
determined on a case-by-case basis, currently can include:

   1. Calling a default and demanding that the Company, among other
      things, cure the default and amend its Title XI documents to include
      new, more effective remedial rights for MARAD (see discussion
      below for more information).
   2. MARAD hiring private auditors to review the company’s records and
      complete an outside audit, as a company payable.
   3. Reporting the existence of the defaults to applicable credit rating
      agencies and other members of the shipping industry by the issuance
      of a public statement from MARAD that the company is in default.
   4. Assuming the guaranteed obligations and transferring the vessels and
      the obligations to another ship owner and commencing available
      creditor remedies against the company.
   5. Seizing the vessels and laying them up or operating them in the name
      of MARAD to collect the revenue stream.
   6. Debarring the Company from other Federal programs, grants,
      contracts, loans and loan guarantees.
   7. Sending a notice to the Indenture Trustee instructing it to call upon the
      guaranteed obligations and the commencement of all available
      creditor remedies against the company.
   8. Referral for prosecution pursuant to 18 U.S.C. 1001 in the event that
      the Company has made willful written misrepresentations to
      MARAD.

MARAD will execute these remedies, as appropriate, to protect the
Government’s financial and maritime interests, against any existing Title XI
company that fails or refuses to comply promptly and in good faith with
MARAD’s demand that the company cure its defaults.

Enforcement Based on New Remedies.

Effective immediately, each new Title XI guarantee that MARAD issues
will add new remedies to the existing Title XI documentation to ensure that,
upon a company’s default pursuant to the Title XI documents, the
Government can immediately employ a full range of creditor remedies




Appendix. Management Comment s
                                                                                  29



available under the law. These remedies can be put in place in the Title XI
documentation without the creation of new statutory or regulatory authority.

As noted above, MARAD will demand that existing defaulters (and all Title
XI companies that seek to renegotiate the terms of their current transaction)
agree to include these new remedies as part of their existing Title XI
documentation.

These new remedies will:

   1. Clearly spell out that MARAD may exercise the full range of creditor
      remedies immediately upon the occurrence of a Default whether or
      not MARAD has paid under the guarantee or assumed the debt.
      These remedies will include, for instance, the right to bring suit in law
      and in equity to obtain compliance even before MARAD has paid out
      one dollar under its guarantee.

   2. Ensure that MARAD is authorized to take immediate steps to protect
      its interests fully if the Company fails to make its Reserve Fund
      deposits or any other payment or to take any other action required by
      the Security Agreement for the benefit of MARAD.

   3. Require shareholders of closely held Title XI companies and board
      members and other key officials of all Title XI companies to be
      financially responsible, as appropriate, to MARAD if they cause the
      Title XI Company to violate its Title XI duties.

Recommendation 2. In coordination with the Department of
Transportation Credit Council, secure access to advisors outside
MARAD with the requisite capacity and technical sophistication to
negotiate solutions to distressed loans, including appropriate
compensating provisions to mitigate risk.

MARAD will work with the Credit Restructuring Working Group (CRWG)
to develop a statement of work for advisors outside of MARAD that could
be used for any of the Department’s credit programs, including Title XI, and
to evaluate the funding options for such advisors. This issue will be
presented to the Department of Transportation Credit Council at its next
meeting scheduled to occur in September 2004. MARAD will draft a
statement of work in conjunction staff representing the other credit programs




Appendix. Management Comment s
                                                                                  30



within the Department. The CRWG will then present the results of its
analysis to the Department of Transportation Credit Council for its decision
as to how to proceed. We would expect that this decision could be made by
mid-November and that a detailed action plan for implementation of the
decision could be developed by mid-December.

Recommendation 3. With the concurrence of the Department of
Transportation Credit Council, seek appropriations language allowing
the use of as much of the $25 million wartime supplemental
appropriation as necessary to develop a comprehensive computer-based
financial monitoring system.

The Office of the Secretary has advised that the Department wants to
implement a monitoring system that can be used by all the Department credit
programs for purposes of efficiency and consistency. The CRWG has
already met with MARAD’s Chief Information Officer (CIO) and a
representative of the Department’s CIO to discuss this matter and to
determine the funding necessary from each mode for development of a
requirements definition and analysis of alternatives. This phase is anticipated
to take 120 days. The Department anticipates that the funding needed to
complete this phase will be obligated prior to the end of the current fiscal
year and MARAD has already obligated its share. The MARAD CIO has
already developed a preliminary statement of work for the first phase of the
project and will finalize the statement of work after reaching full agreement
with all members of the CRWG.

After completion of the first phase described above, the CRWG will
determine the funding necessary to continue with the project. If necessary to
make funding decisions, the CRWG will ask for guidance from the
Department Credit Council. In view of the fact that the number of
outstanding Title XI guarantees make up a major portion of the
Department’s total credit portfolio and recognizing that a portion of the
supplemental appropriation will be required to fund a major portion of the
project to completion, the Department has begun to investigate means for
obtaining appropriations language to allow the use of a portion of the
supplemental appropriation for this purpose.

After securing the necessary funding, the next phase of the project will be
the solutions definition, expected to take 90 days. In this phase, the method




Appendix. Management Comment s
                                                                              31



for accomplishing the requirements within the selected alternative will be
developed.

After completion of the first two phases, 18 months will be allowed for the
acquisition and implementation of the selected system. The approach will be
phased with incremental installations of software.




Appendix. Management Comment s
